TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                     Inspection of Internal Revenue Service
                    Controls to Achieve Its Goal of Reducing
                        Time Charges for Union Activities



                                      November 27, 2012

                           Reference Number: 2013-IE-R001




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 7=Predecisional staff recommendations or suggestions to Agency decision makers



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                      DEPARTMENT OF THE TREASURY
                                            WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               November 27, 2012


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                         R. David Holmgren
                               Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                      Final Inspection Report – Inspection of Internal Revenue Service
                               Controls to Achieve Its Goal of Reducing Time Charges for Union
                               Activities (# IE-12-002)

 This report presents the results of our inspection to determine whether the Internal Revenue
 Service (IRS) has adequate controls in place to achieve its goal to reduce overall time charges for
 Union activities.

 Synopsis
 According to the 2009 National Agreement II (Agreement), the IRS and the National Treasury
 Employees Union (NTEU or Union) committed to reducing the amount of official1 and bank2
 time used for representational activities by an overall 5 percent during each year of the
 Agreement. We found that IRS and NTEU efforts resulted in reduced Union time charges
 overall; however, the goal of a 5-percent reduction was not achieved.
 We determined several shortfalls limited the IRS’s and the NTEU’s ability to achieve its overall
 5-percent reduction. We determined that the lack of incentives and targeted reduction goals for
 official time and the methodology for determining annual bank time allocations limited the
 parties’ ability to reach the stated reduction goal. Furthermore, we determined that the IRS’s
 general time codes for official and bank time use, which respectively accounted for 55 percent
 and 86 percent of time used in Fiscal Year 2011, did not provide enough detail to adequately
 account for Union activities. Also, we found that 79 Local Official Time Utilization Plans had


 1
   Official time is duty time granted when stewards are participating in meetings or other communications with IRS
 management. Official time may also be prescribed for travel to and from such meetings.
 2
   Bank time is duty time granted in order for stewards to confer with employees, prepare grievances, prepare for
 arbitration, or prepare a reply to a notice of proposed disciplinary, adverse, or unacceptable performance action.
 Bank time is authorized for activities not conducted in the presence of management.
            Inspection of Internal Revenue Service Controls to Achieve
              Its Goal of Reducing Time Charges for Union Activities




not been revised since the implementation of the Agreement, and the IRS and the NTEU did not
clarify justifications and methodologies used for determining appointments of full-time stewards,
who accounted for approximately 52 percent of all Union time charges.

Recommendations
*****Code Number 7*****




Response
*****Code Number 7*****




Please contact me at (202) 927-7048 if you have questions or Kevin P. Riley, Director, Office of
Inspections and Evaluations, at (972) 249-8355.




                                                                                                2
                          Inspection of Internal Revenue Service Controls to Achieve
                            Its Goal of Reducing Time Charges for Union Activities




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Reduced Union Time Goals Were Not Met .................................................. Page 4
                    Recommendation 1:...................................................... Page 10

                    Recommendation 2:........................................................ Page 12

                    Recommendation 3:........................................................ Page 14

                    Recommendation 4:........................................................ Page 16

          Agreed Upon Changes to the Agreement Could Improve
          Management of Union Time ......................................................................... Page 16

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 18
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – Fiscal Year 2011 Individual Chapter Per Capita Rates,
          Bargaining Unit Employees, and Full-Time Stewards ................................ Page 22
          Appendix V – Number of Weeks Included in the Reporting Cycles
          for Fiscal Years 2008 Through 2011 ........................................................... Page 27
          Appendix VI – Fiscal Year 2011 Official and Bank Time by
          Time Code ..................................................................................................... Page 28
          Appendix VII – Management’s Response to the Draft Report ..................... Page 30
        Inspection of Internal Revenue Service Controls to Achieve
          Its Goal of Reducing Time Charges for Union Activities




                      Abbreviations

BUE             Bargaining Unit Employee
FY              Fiscal Year
IRS             Internal Revenue Service
LOTUP           Local Official Time Utilization Plan
NTEU            National Treasury Employees Union
OTC             Official Time Coordinator
PCR             Per Capita Rate
                      Inspection of Internal Revenue Service Controls to Achieve
                        Its Goal of Reducing Time Charges for Union Activities




                                              Background

The Treasury Inspector General for Tax Administration initiated this review to determine
whether the Internal Revenue Service (IRS) has adequate controls in place to achieve its goal to
reduce overall time charges for Union activities. Under the rules and guidelines prescribed in the
2009 National Agreement II (Agreement), the National Treasury Employees Union (NTEU or
Union) represents IRS bargaining unit employees (BUE). The Official Time Program Unit,
within the IRS’s Workforce Relations Division of the Human Capital Office, has the overall
responsibility of managing Article 9, Stewards and Official Time, matters of the Agreement with
the Union.
Federal labor law authorizes Union representatives (stewards) to conduct Union activities during
official duty hours.1 Union representatives consist of chapter presidents, chief stewards, assistant
chief stewards, and any other BUE authorized to act on behalf of the NTEU. The NTEU
designates IRS employees or retirees in good standing as Union representatives; however, only
IRS employees receive official2 and bank3 time during the course of their regular tour of duty to
perform authorized Union activities.4 Union time is granted to employees acting on behalf of the
Union to perform authorized representational activities without loss of pay or leave; however,
Union time may not be granted for internal Union business.5 Unlike official time, chapters
receive an annual allocation of bank time based on the chapter’s previous year’s use, number of
BUEs, and per capita rate (PCR).6
Union stewards perform their duties on either a full-time or part-time basis. Full-time stewards
are permitted to engage in labor-management activities without limitation on their use of official
and bank time. The number of full-time stewards must be negotiated and agreed upon for each
individual chapter.7 All stewards not identified as full-time stewards are part-time stewards and,
with the exception of chapter presidents and chief stewards, are limited to a cumulative use of



1
  5 U.S.C. § 7131.
2
  Official time is duty time granted when stewards are participating in meetings or other communications with IRS
management. Official time may also be prescribed for travel to and from such meetings.
3
  Bank time is duty time granted in order for stewards to confer with employees, prepare grievances, prepare for
arbitration, or prepare a reply to a notice of proposed disciplinary, adverse, or unacceptable performance action.
Bank time is authorized for activities not conducted in the presence of management.
4
  2009 National Agreement II, Article 9, Stewards and Official Time, Section 1.B(2).
5
  Internal Union business includes activities such as the solicitation of members or the election of Union officials.
6
  The PCR is defined as the average number of official and bank time hours the Union uses per BUE on
representational matters.
7
  2009 National Agreement II, Article 9, Stewards and Official Time, Section 2.I, Full Time Stewards.
                                                                                                               Page 1
                       Inspection of Internal Revenue Service Controls to Achieve
                         Its Goal of Reducing Time Charges for Union Activities




850 hours of official and bank time during the calendar year.8 Additionally, part-time stewards
must submit a request for release to their immediate supervisor, providing the location,
approximate amount of time needed, and a general description of the activity for which the time
will be used.9
The Official Time Program Unit has designated seven human resource specialists as official time
coordinators (OTC) in order to manage Article 9, Stewards and Official Time, matters of the
Agreement. The OTCs have been delegated authority to work with Union chapters on the
negotiation of full-time stewards and the negotiation and creation of Local Official Time
Utilization Plans (LOTUP)10 and also to work with the NTEU and IRS management on inquiries
and disputes regarding Union official time use and a steward’s release from duty. Each OTC has
been assigned a geographical area of responsibility and serves as a back-up to another OTC.11 In
addition to these duties, the OTCs are responsible for monitoring, analyzing, and reporting
various elements of official and bank time use by Union stewards.
This review was performed during the period February through May 2012 during ongoing
contract negotiations between the IRS and the NTEU. This review was performed in the offices
of the IRS Human Capital Officer’s Official Time Program Unit in Oakland, California;
Denver, Colorado; Chamblee, Georgia; Lowell, Massachusetts; Kansas City, Missouri;
Trenton, New Jersey; and Austin and Dallas, Texas.
We conducted this inspection in accordance with the Council of the Inspectors General for
Integrity and Efficiency Quality Standards for Inspections. Detailed information on our
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




8
  Not all Union chapter presidents and chief stewards are full-time stewards. When these positions are considered
part-time, stewards may exceed the 850 hour limit on Union time use provided sufficient time is accumulated to
meet the minimum appraisal period required to receive an annual rating of record. An exception may also be made
for other part-time stewards if sufficient justification is provided in the Local Official Time Utilization Plans and the
chapter has appointed no full-time stewards.
9
  2009 National Agreement II, Article 9, Stewards and Official Time, Section 2.P.
10
   The LOTUPs are plans which document full- and part-time stewards and official and bank time matters related to
steward travel, training, release from duty, appeals of denied requests to use time, et cetera, at the local level. The
LOTUPs are also disseminated to the supervisors of Union stewards in order to help educate and assist IRS
leadership with properly managing stewards’ requests for and use of official and bank time for Union activities.
11
   The OTCs service NTEU chapters across the East, Mideast, Midwest, North Plains, Northeast, Southeast, and
West regions of the United States.
                                                                                                                 Page 2
                     Inspection of Internal Revenue Service Controls to Achieve
                       Its Goal of Reducing Time Charges for Union Activities




                                     Results of Review

The Office of Personnel Management reported that in Fiscal Year (FY) 2010 the unions in
Federal agencies used an average of 2.58 hours per BUE on representational matters.12 During
this same time period, the IRS had a PCR rate of 7.1 hours, which is 175 percent higher than the
Federal average and the fourth highest among the 61 Federal agencies included in the report.
Only three Federal agencies had PCRs greater than the IRS; however, those agencies represented
a combined BUE total of less than 3 percent of the IRS’s BUE total. Additionally, the IRS PCR
was at least 70 percent higher than the PCRs for Federal agencies with at least 50,000 BUEs.
Figure 1 compares IRS Union time charges to those agencies discussed above.
      Figure 1: FY 2010 Comparison of the IRS PCR to Other Federal Agencies

     Rank by
     Highest
      PCR                             Agency                            BUEs            Hours          PCR
       1st        National Labor Relations Board                          1,076         11,480          10.67
       2nd        Railroad Retirement Board                                 714          5,253           7.36
       3rd        National Endowment for the Humanities                      39            280           7.18
       4th        Treasury (including IRS)                               92,441        649,170           7.02
                     Internal Revenue Service13                          84,897        603,130           7.10
      12th        Social Security Administration                         54,875        229,311               4.18
      17th        Veterans Affairs                                     240,405         809,740               3.37
      27th        Homeland Security                                      64,080        130,583               2.04
      43rd        Defense                                              440,452         348,704               0.79
                  All Federal Agencies                               1,185,685       3,062,842               2.58
Source: Department of the Treasury’s Call for Fiscal Year 2010 Official Time Data Report and the Office of
Personnel Management’s Official Time Usage in the Federal Government Fiscal Year 2010 Survey.

In an effort to decrease Union time charges, the IRS and the NTEU (collectively, “the parties”)
committed to reducing the amount of official and bank time used for representational activities
by 5 percent during each year of the Agreement. If the IRS and NTEU were able to reduce


12
  Office of Personnel Management’s Official Time Usage in the Federal Government Fiscal Year 2010 Survey.
13
  The Department of the Treasury report included 6,894 hours charged by non-stewards, which were not included in
the scope of our review.
                                                                                                         Page 3
                   Inspection of Internal Revenue Service Controls to Achieve
                     Its Goal of Reducing Time Charges for Union Activities




Union time charges by 5 percent each year, it would take the parties approximately 20 years to
reduce the IRS PCR to 2.58 hours.
The parties reduced Union time charges during the first two years of the Agreement (FYs 2010
and 2011). However, they did not achieve their goal to reduce Union time charges by 5 percent
during each contract year of the Agreement, primarily because the parties did not implement
procedures and policies to address all aspects of Union time charges. In May 2012, the IRS
informed us that it no longer plans to pursue the annual 5-percent reduction goals for Union time
use, although the IRS Human Capital Officer indicated that he would like IRS Union time
charges to be consistent with other Federal Agencies. On June 14, 2012, the parties agreed to
make revisions to the Agreement that could reduce union time charges. However, additional
modifications are required to increase the likelihood of achieving future Union time reductions,
and significant changes are required to reduce time charges to the level of other Federal agencies.

Reduced Union Time Goals Were Not Met
According to the IRS’s reports, the parties reduced overall Union time charges by approximately
4.40 and 0.96 percent for FYs 2010 and 2011, respectively. Figure 2 illustrates the Union time
reductions during the first two years of the Agreement.
             Figure 2: Reduction in Total Union Time Charges (in Hours)

            700,000          623,697                  596,264                590,523
            600,000
            500,000                       ‐4.40%                   ‐0.96%
            400,000
            300,000
            200,000
            100,000
                  0
                             FY 2009                 FY 2010                FY 2011




     Source: IRS Official Time and Bank Time Reports for FYs 2009 through 2011.

The decrease between FY 2009 and 2010 is partly due to the method used to calculate Union
time charges. The IRS captures Union time charges weekly and the reporting period for each
fiscal year generally includes 52 weeks. However, every few years the IRS’s reporting period
includes 53 weeks, which is what occurred in FY 2009. If Union time charges were compared

                                                                                            Page 4
                     Inspection of Internal Revenue Service Controls to Achieve
                       Its Goal of Reducing Time Charges for Union Activities




using the last 52 weeks for FY 2009, the reduction in Union time charges between FY 2009 and
2010 would be about 2.53 percent instead of 4.40 percent. The figure in Appendix V documents
the reporting periods for FY 2008 through FY 2011.

The goals to reduce bank time charges were not consistently met
In order to achieve the goal of reducing Union time charges by 5 percent for each year of the
Agreement, the parties established target reduction goals for bank time for each chapter based on
its PCR and offered incentives to those chapters that met those reduction goals. The chapter
reduction goals are:
        Five-percent reductions for chapters with a PCR greater than 3.5 hours.
        Two-percent reductions for chapters with a PCR between 3.0 and 3.5 hours.
        No reduction goal for chapters with a PCR less than 3.0 hours, as long as these chapters
         do not increase bank time use by more than 5 percent of the current year’s allocation.
According to the Agreement, if a chapter achieves the reduction goals, the IRS would reimburse
the chapter for travel and per diem expenses for an additional steward to attend NTEU National
Office training. If the reduction goals were met for a second consecutive year, the IRS would
reimburse the chapter for the balance of the chapter’s cost of the next invoked and completed
arbitration or for travel and per diem expenses for an additional steward to attend NTEU
National Office training.
As documented in Figure 3, the parties reduced bank time charges during the first year of the
Agreement (FYs 2009 to 2010) by 5.6 percent.14 However, they only reduced bank time charges
by 2.5 percent during the second year of the Agreement, and 54 percent of the chapters (59 of
109) did not achieve bank time reduction goals (as seen in Figure 4).




14
 The hours charged FY 2009 is based on 52 weeks of data instead of 53 weeks. If the hours charged for FY 2009
were based on 53 weeks of data, the decrease in time charges would be 7.6 percent instead of 5.6 percent.
                                                                                                       Page 5
                        Inspection of Internal Revenue Service Controls to Achieve
                          Its Goal of Reducing Time Charges for Union Activities




                            Figure 3: Reductions to Bank Time Charges

                     400,000          321,969              303,939                296,435
                     300,000
                                                 ‐5.6%                   ‐2.5%
                     200,000
                     100,000
                            0
                                     FY 2009              FY 2010                FY 2011




            Source: Analysis of data (for 52 weeks) obtained from the IRS’s Single Entry Time Reporting
            System.15

         Figure 4: Union Chapters That Did Not Meet FY 2011 Reduction Targets

                          FY 2011                             # of            Goals
                      Reduction Targets                     Chapters         Not Met        Percentage

            5% Reduction Goal                                   75               42             56%

            2% Reduction Goal                                    6                5             83%

            No Reduction, but No More Than
                                                                28               12             43%
            5% Increase in Use

                                                               109               59             54%
           Source: Data extracted from the IRS’s Single Entry Time Reporting System.

Bank time allocations and reduction goals did not encourage declines in bank
time
The IRS estimates reduction goals for NTEU chapters based on the current contract year’s
allocation of bank time. In order to determine a chapter’s bank time allocation, the IRS and the
NTEU agreed to base the allocation on the chapter’s previous year’s use and PCR. Figure 5
illustrates the process used to calculate bank time allocations based on the Agreement.


15
     The Single Entry Time Reporting System is the IRS’s time and attendance system.
                                                                                                          Page 6
                      Inspection of Internal Revenue Service Controls to Achieve
                        Its Goal of Reducing Time Charges for Union Activities




            Figure 5: Method Used for Calculation of Bank Time Allocations




         Source: Discussion with Official Time Program Manager, and the 2009 National Agreement II,
         Article 9, Stewards and Official Time, Section 2.G.

As documented above, the method used to calculate bank time allocations is based on the
number of BUEs at two different time periods. The IRS calculates a chapter’s PCR using the
number of BUEs as of the end of the previous fiscal year (near the end of September). Then the
IRS multiplies the PCR by the number of BUEs as of the first pay period in April of the previous
contract year.16 The IRS hires seasonal employees during the tax season,17 which results in a
greater number of BUEs in April than the end of the fiscal year for most chapters. Therefore, the
IRS calculation for the chapters’ bank time allocations generally results in an increase of bank
time hours. For FY 2011, 93 chapters had more BUEs during the tax filing season than at the
end of the fiscal year; only 13 chapters had fewer BUEs during the tax filing season than at the
end of the fiscal year. Two chapters had no change. Figure 6 shows the difference that could
occur in the number of BUEs during the two time periods.




16
   In practice, the time period used to calculate the number of BUEs could be the pay period ending closest to the
end of March or the beginning of April.
17
   The tax season is defined as the time period between January 1 and April 15 of each year in which individuals
traditionally prepare the previous year’s financial statements and reports.
                                                                                                             Page 7
                        Inspection of Internal Revenue Service Controls to Achieve
                          Its Goal of Reducing Time Charges for Union Activities




                            Figure 6: Difference in the Number of BUEs
                           Used for the Bank Time Allocation for FY 201218

               BUEs as of September 25, 2011                                                     81,061

                   93 Chapters Had More BUEs                                   + 4,753

                   13 Chapters Had Less BUEs                                      - 122

                   2 Chapters Had No Change                                            0

               Total BUE Increase                                                                 4,631

               BUEs as of March 28, 2011                                                         85,692

               Percentage of Change                                                           + 5.40%
              Source: IRS’s Fiscal Year 2012 Bank Time Allocation.

Using the methodology described above, the IRS calculated a bank time allocation of
310,345 hours for FY 2012, which was 13,910 hours more than the bank time used in FY 2011.
The IRS then used the FY 2012 bank time allocations to calculate bank time target reduction
goals for each chapter. As a result, the IRS calculated an overall bank time target reduction goal
for FY 2012 of 304,048 hours, 7,613 (about 3 percent) more hours than those used for FY 2011.
Had the IRS used the average of the number of BUEs for the two dates above, the target bank
time would have totaled 284,427 hours, 12,008 (4 percent) fewer than those used by the IRS in
FY 2011. Figure 7 shows this comparison.




18
     Chapter 70 was closed during FY 2011; as a result, we did not consider that chapter’s BUEs in Figure 6.
                                                                                                               Page 8
                        Inspection of Internal Revenue Service Controls to Achieve
                          Its Goal of Reducing Time Charges for Union Activities




                       Figure 7: FY 2011 Bank Time Use Compared to
                 FY 2012 Bank Time Allocations and Target Reduction Goals

             400,000
                             296,435             310,345             304,048             284,487
             300,000


             200,000


             100,000


                   0
                       FY 2011 Bank Time   FY 2012 Bank Time   FY 2012 Bank Time    Bank Time Target
                             Used              Allocation            Target        Based on Avg BUEs

     Source: IRS’s FY 2012 Bank Time Allocation. The FY 2012 Allocation and Incentive totals include only
     108 chapters because Chapter 70 no longer exists.

We did not make a recommendation related to this issue because the IRS revised its
methodology for computing the PCR. Furthermore, the IRS and the NTEU negotiated and
agreed the bank time allocations for FYs 2013 and 2014 for each chapter would be the same as
the bank time used by each chapter for FY 2011.

Incentives were not established for reducing official time use
With exception to the overall goal of reducing Union time by 5 percent, the IRS and the NTEU
did not establish similar incentives and target reduction goals for reducing official time use as
they did for bank time. Official time accounted for approximately 50 percent of all Union time
charges for FY 2009 through 2011.19 In order to reduce Union time charges for official time, the
parties attempted to limit and consolidate the number of formal ‘face-to-face’ meetings related to
grievances, personnel policies or practices, and other general conditions of IRS employment
where the Union was given the opportunity to be represented. The OTCs monitor official time,
in addition to bank time, for obvious errors. Despite those efforts, official time increased by
nearly 1 percent during each year of the first two years of the Agreement, as seen in Figure 8.




19
  Official time accounted for 47, 49, and 50 percent of total Union time charges in FYs 2009, 2010, and 2011,
respectively.
                                                                                                            Page 9
                         Inspection of Internal Revenue Service Controls to Achieve
                           Its Goal of Reducing Time Charges for Union Activities




                             Figure 8: Increases in Official Time Charges

             350,000
                                  289,761                     292,297                 294,090
             300,000
             250,000
             200,000                             0.9%                       0.6%
             150,000
             100,000
              50,000
                     0
                                 FY 2009                      FY 2010                FY 2011




      Source: Data (for 52 weeks) extracted from the IRS’s Single Entry Time Reporting System.

Recommendation
Recommendation 1: *****Code Number 7*****

           Management’s Response: *****Code Number 7*****




More information is required to identify opportunities to reduce Union time
charges
The IRS and the NTEU have 16 time codes (10 for official time and six for bank time) for use by
Union stewards in order to account for time spent on Union activities.20 Of the 16 time codes,
the two general communication codes account for the majority of Union time charges for official
and bank time. The official time code 58310 accounted for 55 percent of official time used in
FY 2011, and the bank time code 58800 accounted for 86 percent of bank time used in FY 2011
(see Figure 9).

20
     See Appendix VI for a complete list of all time codes.
                                                                                                 Page 10
                         Inspection of Internal Revenue Service Controls to Achieve
                           Its Goal of Reducing Time Charges for Union Activities




                        Figure 9: FY 2011 Union Time Used by Time Codes



                                                                               14%




                        45%                 55%


                                                                                            86%


        Official Time                                        Bank Time


                58310 ‐ Management Communications              58800 ‐ General Employee Communications & Prep
                All Other Official Time Codes                  All Other Bank Time Codes


       Source: Data extracted from the IRS’s Single Entry Time Reporting System.

The official time code 58310 includes the following Union activities:
      Meetings with the employer for the purpose of presenting replies to proposed termination of
       probationers.
      Tax audits of unit employees that are conditions of employment when the employees request
       representation.
      Attending U.S. Occupational Safety and Health Administration field council meetings.
      Communications with management, whether written, electronic, or telephonic.
    Meetings of committees established as a result of nationally or locally negotiated agreements.
The bank time code 58800 includes the following Union activities:
      Conferring with employees on matters for which remedial relief may be sought.
      Preparing witnesses in any proceeding.
      Reviewing documents.
      Preparing a reply to a notice of proposed disciplinary, adverse, or unacceptable performance
       action.




                                                                                                                Page 11
                      Inspection of Internal Revenue Service Controls to Achieve
                        Its Goal of Reducing Time Charges for Union Activities




        Meeting with national staff representatives of the Union in connection with a grievance,
         arbitration, or unfair labor practice charge.
        Preparing and maintaining records and reports required of the Union and other
         Government agencies.
        Coordinating labor-management meetings and other authorized representational
         activities.
        Responding to contacts from Congress, but not to lobby a member of Congress or staff
         person of a member of Congress.
        Related communications whether written, electronic, or telephonic.
        Activities related to the Employee Engagement Survey.
As noted above, the IRS and the NTEU use the two general time codes to account for numerous
Union activities. However, the time codes do not provide enough detail for the IRS or other
parties to adequately account for Union activities and identify opportunities to reduce Union time
charges. As a result, the IRS cannot readily analyze the use of these time codes to identify which
of the activities account for the majority of the time used.

Recommendation
Recommendation 2: *****Code Number 7*****




         Management’s Response: *****Code Number 7*****




Justifications for the number of full-time stewards are not apparent
In FY 2011, 217 full-time stewards accounted for approximately 52 percent of all Union time
charges.21 Full-time stewards are permitted to engage in labor-management activities on a

21
  In FY 2011, full-time stewards used approximately 306,319 (52 percent) of the 590,525 total hours reported, and
part-time stewards used roughly 284,207 (48 percent) hours. Due to steward attrition, internal rotations, and acting
assignments, the totals for full- and part-time steward time use are approximations of the 590,525 hours used in
FY 2011.
                                                                                                            Page 12
                       Inspection of Internal Revenue Service Controls to Achieve
                         Its Goal of Reducing Time Charges for Union Activities




full-time basis without limitation on their use of official and bank time. IRS OTCs and chapter
presidents or designated chapter representatives must negotiate the number of full-time stewards
for a chapter based on criteria outlined in the Agreement. According to the criteria, a chapter
with fewer than 125 BUEs may not appoint a full-time steward unless the employees represented
by the chapter are located in more than four duty locations or the parties mutually agree and the
level of activity, e.g., meetings with IRS leadership, formal grievances, and formal meetings,
within the chapter justifies the appointment of a full-time steward. The criteria outlined in the
Agreement set minimum requirements for having a full-time steward for a chapter; however, the
Agreement does not have criteria to limit the number of full-time stewards in a chapter.
IRS OTCs and NTEU chapter presidents or designated chapter representatives should negotiate
the number of full-time stewards for each chapter, and the number of full-time stewards should
be documented in each chapter’s LOTUP. We found that 82 of the 109 Union chapters have
appointed at least one full-time steward and, while full-time stewards were identified by either
name or title, none of the LOTUPs we reviewed for these chapters documented how the parties
determined the appropriate number of full-time stewards assigned to a chapter. We attempted to
compare the number of BUEs to the number of full-time stewards to determine whether the
number of full-time stewards was reasonable. We generally found there was no correlation
between the number of full-time stewards and the number of BUEs. Figure 10 documents the
apparent lack of correlation between the number of full-time stewards and the number of BUEs.
 Figure 10: Comparison of BUE to the Number of Full-Time Stewards for FY 2011
                                Bargaining Unit                                          Bargaining Unit
   # of        Chapters                                     # of       Chapters
                                  Employees                                                Employees
Full-Time        Per                                     Full-Time       Per
Stewards       Category        Range         Average     Stewards      Category         Range         Average
     0             27          29 – 243          99.1         5             1                1,739         1,739.0
     1             31          96 – 930         360.0         6             4        1,234 – 2,089         1,637.3
     2             27        177 – 1,082        461.6         7             0                   n/a            n/a
     3             7         542 – 3,200      1,385.9         8             3        3,342 – 5,049         4,096.7
     4             6         865 – 2,135      1,376.2        9+             3        4,296 – 7,022         5,642.7
Source: Data extracted from the IRS’s Single Entry Time Reporting System and data from the Official Time
Program Coordinator. For an itemized list of the above information, see Appendix IV.

The OTCs stated their methodology for determining the appropriate number of full-time
stewards includes, but is not limited to, the chapters’ BUEs, level of activity, and current number
of full-time stewards, along with a comparison of those variables to other similarly structured
chapters throughout the IRS. This methodology allows for a more subjective analysis and is
more prone to individual customization because there are no written criteria for assisting in the
determination of the number of full-time stewards above the minimum number of stewards
outlined in the Agreement. *****Code Number 7*****

                                                                                                       Page 13
                      Inspection of Internal Revenue Service Controls to Achieve
                        Its Goal of Reducing Time Charges for Union Activities




Recommendation
Recommendation 3: *****Code Number 7*****



        Management’s Response: *****Code Number 7*****




        Office of Inspections and Evaluations Comment: *****Code Number 7*****




Oversight of part-time stewards
In FY 2011, 1,881 part-time stewards accounted for roughly 48 percent of all official and bank
time hours reported.22 Part-time stewards are permitted to engage in labor-management activities
on a part-time basis. With the exception of chapter presidents and chief stewards, all stewards
not identified as full-time stewards are limited to a cumulative use of 850 hours of official and
bank time during the calendar year.23 Because part-time stewards are not authorized to engage in
Union labor-management activities on a full-time basis, according to the Agreement, they must
request official and bank time from their immediate supervisor in order to be released from their




22
   Due to attrition and internal rotations of Union stewards within chapters, an exact number of hours used while
part-time stewards for the fiscal year was not available.
23
   Not all Union chapter presidents and chief stewards are full-time stewards; when these positions are considered
part-time, the stewards are not required to meet the 850 hour limit on Union time use. However, per the Agreement,
an exception may be made for other stewards if sufficient justification is provided in the LOTUP and the chapter has
appointed no full-time stewards.
                                                                                                          Page 14
                        Inspection of Internal Revenue Service Controls to Achieve
                          Its Goal of Reducing Time Charges for Union Activities




regular tour of duty to perform labor-management activities (this process is referred to as
“Check-In and Check-Out”).24
While IRS managers have the authority to question or deny a steward’s request for release from
duty, per the Agreement, any denial of release or disagreement about the amount of time may be
challenged by the steward or Union chapter. During FYs 2010 and 2011, the OTCs received
108 and 250 cases where requests for release were formally denied and subsequently challenged
by either the Union steward or chapter. In cases where denials are formally documented, the
OTCs review the request for release, supporting details, and the managers’ reasons for denial.
Subsequently, the OTCs provide managers with guidance on approval, disapproval, or
modification of the request to allow for an appropriate time of release from duty for the stewards
to engage in labor-management activities.
Unlike their full-time counterparts, the number of part-time stewards is not negotiated, and
appointment is at the complete discretion of the local chapter. Although the IRS cannot control
the number of the part-time stewards, it does control and monitor the amount of time part-time
stewards can use on an annual basis, with the exception of chapter presidents and chief stewards.
The OTCs are responsible for monitoring the hours of part-time stewards and, when the steward
is approaching the 850-hour limit, notifying the stewards’ manager and requesting that the
manager monitor requests from the steward to ensure the steward does not exceed the time limit.
When the steward has met or exceeds the 850 hours, managers, under the guidance of the OTCs,
issue a letter to the employee and a letter to the chapter president informing both the steward and
chapter that the steward can no longer use official and bank time. Employees generally stop
charging Union time when notified to do so. If the steward does not abide by the directive to
stop using official Union time, the OTCs have the capability to remove the stewards’ access to
Union time codes in the Single Entry Time Reporting system. In Calendar Year 2011, only
12 part-time stewards, who were not chapter presidents or chief stewards, exceeded the 850-hour
limit for Union time charges established in the Agreement.

LOTUPs were not current with the Agreement
Per the Agreement, a LOTUP should be negotiated and established for each chapter. Annually
the responsible OTC and designated local Union representative are permitted to establish new, or
reopen existing, LOTUPs for discussion. Each LOTUP covers a one-year period and may be
reopened within the last 30 days of the LOTUP period. The Agreement does not require that the
LOTUPs remain current with the Agreement; however, it does require that the parties complete
negotiations for Union chapters without the LOTUPs within 60 days of the implementation of
the Agreement, which was October 1, 2009.
For FY 2012, we found that the IRS and the NTEU had not revised the LOTUPs for 80 of the
108 chapters since the Agreement was implemented.25 The OTCs stated that some LOTUPs are

24
     2009 National Agreement II, Article 9, Stewards and Official Time, Section 2.P.
                                                                                              Page 15
                        Inspection of Internal Revenue Service Controls to Achieve
                          Its Goal of Reducing Time Charges for Union Activities




not renegotiated due to disagreements on wording and the number of full-time stewards (the IRS
wishes to reduce the number of full-time stewards and the chapters want an increase). As a
result, the LOTUPs are outdated and less useful.
Aside from training related to the Agreement for new managers and specific training provided by
the OTCs, IRS supervisors should refer to the Agreement and the LOTUPs to properly manage
Union steward official and bank time use. IRS supervisors and managers may not be as familiar
with the language and criteria in the Agreement as the OTCs. Therefore, providing managers
with the LOTUPs that have not been updated and reference sections of an Agreement that are no
longer applicable limits managers’ ability to effectively follow guidance to approve and manage
steward requests for official and bank time.

Recommendation
Recommendation 4: *****Code Number 7*****




           Management’s Response: *****Code Number 7*****



Agreed Upon Changes to the Agreement Could Improve the
Management of Union Time
In September 2011, pursuant to Article 54 of the Agreement, the IRS and the NTEU exercised
their right to reopen the contract and five existing articles per party. On June 14, 2012, the
parties agreed to make revisions to the Agreement. These revisions will make several changes to
the management of time use for Union activities and could assist the IRS and the NTEU in
achieving future reductions in official and bank time use. The planned implementation of the
new Agreement is set for October 1, 2012.
The IRS and the NTEU agreed to make the following changes to the Agreement:
       1. In an attempt to make further reductions in the use of bank time for representational
          purposes, bank time allocations for FYs 2013 and 2014 will be based on the amount of
          bank time used in FY 2011 for each chapter.




25
     There were 108 active chapters in FY 2012, because Chapter 70 was closed near the end of FY 2011.
                                                                                                         Page 16
                  Inspection of Internal Revenue Service Controls to Achieve
                    Its Goal of Reducing Time Charges for Union Activities




   2. For chapters not achieving a reduction in bank time, disincentives will be added to the
      contract, including specific percentage reductions, a reduction in the number of full-time
      stewards, or suspension of the ability to request additional bank time.
   3. For chapters achieving targeted reductions in the use of bank time, additional incentives
      will be added to the contract.
   4. To provide greater accountability for the use of official time, stewards who are subject to
      Check-In and Check-Out procedures and who are requesting official time for an activity
      conducted by another manager must provide the name of the other manager or the
      location of the activity if the name of the manager is not known.
We believe implementation of these proposed changes to Article 9 of the Agreement in
conjunction with the recommendations in this report will assist the IRS and the NTEU in
achieving future overall reductions in official and bank time use.




                                                                                          Page 17
                         Inspection of Internal Revenue Service Controls to Achieve
                           Its Goal of Reducing Time Charges for Union Activities




                                                                                                        Appendix I

            Detailed Objective, Scope, and Methodology

  The objective of our review was to determine whether the IRS has adequate controls in place to
  achieve its goal to reduce overall time charges for Union activities. To achieve our objective,
  we:
  I.       Determined whether the IRS and the NTEU achieved their goal to reduce overall official
           and bank time by 5 percent for each year of the contract.
           A. Obtained and reviewed data for Union time charges for FYs 2009 through 2011.
           B. Documented trends related to Union time charges.
           C. Interviewed IRS Human Capital Office personnel to determine why the goal was not
              achieved, and discussed corrective actions planned or completed to achieve the stated
              goal.
 II.   Determined whether the IRS reviewed and approved the LOTUPs1 submitted by local
       chapters, and determined whether the LOTUPs were consistent with the goal to reduce
       overall Union time charges.
           A. Interviewed the Official Time Program Unit manager, coordinator, and the OTCs.
           B. Determined whether the OTCs obtained, reviewed, and approved utilization plans for
              each Union chapter.
           C. Obtained a list of full-time Union stewards for FY 2011, and determined whether the
              total is in compliance with the Agreement.
III.   Determined whether the IRS has controls in place to ensure Union time charges for part- and
       full-time Union stewards are approved and within limits established in the Agreement.
           A. Determined if any part-time stewards, other than part-time chapter presidents and
              chief stewards, exceeded the 850-hour limit for official time and bank time outlined
              in the Agreement.
           B. Determined how time charges for part-time stewards are monitored to ensure
              part-time stewards do not exceed established limits.

  1
    The LOTUPs are plans which document full- and part-time stewards and official and bank time matters related to
  steward travel, training, release from duty, appeals of denied requests to use time, et cetera, at the local level. The
  LOTUPs are also disseminated to the supervisors of Union stewards in order to help educate and assist IRS
  leadership with properly managing stewards’ requests for and use of official and bank time for Union activities.
                                                                                                                 Page 18
          Inspection of Internal Revenue Service Controls to Achieve
            Its Goal of Reducing Time Charges for Union Activities




C. Determined whether the IRS has controls in place to ensure management approves
   requests made by part-time stewards to conduct Union activities.
D. Determined whether IRS managers receive training related to Union time charges.
E. Reviewed the two most recent semiannual reports for official and bank time denials
   to determine the number of requests denied and reasons for denials.




                                                                               Page 19
                  Inspection of Internal Revenue Service Controls to Achieve
                    Its Goal of Reducing Time Charges for Union Activities




                                                                   Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director, Inspections and Evaluations
James A. Douglas, Supervisory Program Analyst
Dolores M. Castoro, Auditor
John L. da Cruz, Program Analyst




                                                                         Page 20
                  Inspection of Internal Revenue Service Controls to Achieve
                    Its Goal of Reducing Time Charges for Union Activities




                                                                  Appendix III

                          Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Financial Officer, Department of the Treasury
Chief Human Capital Officer OS:HC
Audit Liaison:
       Deputy Commissioner for Operations Support OS




                                                                         Page 21
                        Inspection of Internal Revenue Service Controls to Achieve
                          Its Goal of Reducing Time Charges for Union Activities




                                                                                       Appendix IV

               Fiscal Year 2011 Individual Chapter
          Per Capita Rates, Bargaining Unit Employees,
                     and Full-Time Stewards

                                          Full-Time          BUEs as of
                       CHAPTER            Stewards1           9/25/11          PCR

                               1                  2                342          5.69
                               2                  0                  61         6.44
                               3                  0                153         10.11
                               4                  1                246          5.48
                               5                  0                  90         7.73
                               6                  2                288          5.75
                               7                  0                  91         7.45
                               8                  0                  54         3.93
                               9                  1                709          3.15
                              10                  4              1,180          5.22
                              11                  0                132          8.00
                              12                  2                275         10.25
                              13                  1                159          6.31
                              14                  3                952          5.43
                              15                  2                360          5.60
                              16                  4              1,217          3.54
                              17                  0                243          3.94
                              18                  0                200          4.88

1
    Full-time stewards who charged time for Union activities during FY 2011.
                                                                                            Page 22
Inspection of Internal Revenue Service Controls to Achieve
  Its Goal of Reducing Time Charges for Union Activities




            Full-Time   BUEs as of
CHAPTER     Stewards1    9/25/11        PCR

   19            0            63         5.37
   20            2         1,061         4.11
   22            4           966         4.37
   23            3           666         6.79
   24            2           869         5.45
   25            1           211         4.62
   26            5         1,739         2.07
   27            0           137         3.32
   29            1           423         9.42
   30            2         1,082         3.50
   31            0            32         7.26
   32            3           902         4.74
   33            2           509         3.28
   34            2           725         4.37
   35            1           116         4.54
   36            1           412         0.90
   37            2           546         4.64
   38            0            35        10.61
   39            2           497         6.77
   40            1           546         3.41
   41            1           113         8.85
   42            0            70         5.78
   43            1           541         2.29
   44            0            49         6.82
   45            1           349         3.75


                                                       Page 23
Inspection of Internal Revenue Service Controls to Achieve
  Its Goal of Reducing Time Charges for Union Activities




            Full-Time   BUEs as of
CHAPTER     Stewards1    9/25/11        PCR

   46            4         1,894         3.32
   47            6         1,234         1.76
   48            2           777         3.83
   49            1           665         2.38
   50            1           574         2.41
   51            0           151         4.78
   52            2           586         3.96
   53            2           251        12.59
   54            1            96        11.42
   55            1           195         6.84
   56            0            94         9.04
   57            0            87         4.32
   58            1           930         1.68
   59            0           190         4.48
   60            4           865         5.48
   61            2           177         1.67
   62            1           610         4.53
   64            1           304         4.21
   65            3         3,200         1.11
   66            8         5,049         2.22
   67            9         5,610         3.34
   68            6         1,870         4.02
   69            0            60         4.12
   70            2           222        10.71
   71            8         3,342         2.16


                                                       Page 24
Inspection of Internal Revenue Service Controls to Achieve
  Its Goal of Reducing Time Charges for Union Activities




            Full-Time   BUEs as of
CHAPTER     Stewards1    9/25/11        PCR

   72            8         3,899         2.56
   73           11         4,296         2.09
   74            0            70        12.93
   75            0            42        20.50
   77            1           211         4.46
   78            1           646         2.94
   79            0            77         4.26
   81            1           133         8.89
   82            1           750         1.55
   83            1           122        11.87
   84            1           239         4.76
   85            2           244        11.43
   86            1           201         5.12
   87            2           220         8.61
   90            0           154         1.15
   92            2           295         7.19
   93            3           542         2.28
   97           14         7,022         4.17
   98            6         2,089         2.64
   99            3         2,835         1.51
  100            0            29         1.79
  107            2           240         9.80
  108            3           604         5.73
  117            0           113        10.12
  118            2           187         8.39


                                                       Page 25
                        Inspection of Internal Revenue Service Controls to Achieve
                          Its Goal of Reducing Time Charges for Union Activities




                                          Full-Time         BUEs as of
                       CHAPTER            Stewards1          9/25/11                  PCR

                            124                  1                 202                3.10
                            193                  1                 608                3.57
                            198                  1                 147                6.43
                            222                  2                 830                2.21
                            233                  2                 376                6.45
                            234                  2                 212                6.71
                            238                  2                 385                4.60
                            239                  2                 489                4.11
                            247                  6              1,356                 5.50
                            249                  1                 131                5.50
                            252                  0                 156                9.03
                            253                  0                  42                7.20
                            267                  1                 234                3.30
                            270                  2                 419                4.49
                            271                  1                 338                9.74
                            284                  4              2,135                 2.94

                                              217              81,764
                    Source: Chart created with data extracted from the IRS’s Single Entry Time
                    Reporting System 2 and data provided by the Official Time Program Unit.




2
    The Single Entry Time Reporting System is the IRS’s time and attendance system.
                                                                                                 Page 26
               Inspection of Internal Revenue Service Controls to Achieve
                 Its Goal of Reducing Time Charges for Union Activities




                                                                                     Appendix V

Number of Weeks Included in the Reporting Cycles
      for Fiscal Years 2008 Through 2011

         FY               Starts             Ends              Days              Weeks
        2011            10/3/2010         10/1/2011             364                  52
        2010            10/4/2009         10/2/2010             364                  52
        2009            9/28/2008         10/3/2009             371                  53
        2008            9/30/2007         9/27/2008             364                  52
  Source: The IRS’s Official Time and Bank Time Reports for FYs 2008 through 2011.




                                                                                          Page 27
                Inspection of Internal Revenue Service Controls to Achieve
                  Its Goal of Reducing Time Charges for Union Activities




                                                                         Appendix VI

          Fiscal Year 2011 Official and Bank Time
                       by Time Code

                                        Official Time
                                                                             Percentage
Time Code                         Description                    Hours        of Total

  58300      Formal meetings including 5 U.S.C. 7114(a)(2)(A)     54,493.0       18.5 %

             Communications with management (see page 10 for a
  58310                                                          161,877.3       55.0 %
             more complete list)

  58320      Grievance meetings and arbitration hearings           8,494.5        2.9 %

  58330      Statutory or regulatory matters and/or appeals        5,597.2        1.9 %

             Activities required by Federal Service
  58340                                                            6,889.7        2.3 %
             Labor-Management Relations Statute

  58350      Labor Management Relations Committee meetings         1,895.9        0.6 %

             Prepare and meet for statutory complaints of
  58360                                                            2,249.8         0.8%
             discrimination

  58370      Union-conducted training                             48,873.4       16.6 %

  58380      National Business Improvement Committee meetings       336.6         0.1 %

             Subcommittee meetings of Labor Management
  58390                                                            3,382.8        1.2 %
             Relations Committee

     Total                                                       294,090.2    100.0 %*




                                                                                  Page 28
                        Inspection of Internal Revenue Service Controls to Achieve
                          Its Goal of Reducing Time Charges for Union Activities




                                                   Bank Time
                                                                                                   Percentage
     Time Code                               Description                               Hours        of Total

                     Confer with employees and review documents
        58800                                                                         254,836.3        86.0 %
                     (see page 10 for a more complete list)

        58810        Prepare grievances and prepare for arbitration                    37,226.1        12.6 %

                     Prepare for Labor Management Relations Committee
        58820                                                                              479.4        0.2 %
                     meetings

        58830        Prepare for Business Improvement Committee meetings                   112.5        0.0 %

                     Prepare for subcommittee meetings of the Labor
        58840                                                                            1,092.5        0.4 %
                     Management Relations Committee

        58850        Activities related to preparation for negotiations                  2,688.3        0.9 %

            Total                                                                     296,435.1     100.1 %*
    Source: Data (for 52 weeks) extracted from the IRS’s Single Entry Time Reporting System.1
    *Percentages do not total 100 percent due to rounding.




1
    The Single Entry Time Reporting System is the IRS’s time and attendance system.
                                                                                                       Page 29
     Inspection of Internal Revenue Service Controls to Achieve
       Its Goal of Reducing Time Charges for Union Activities




                                                    Appendix VII

Management’s Response to the Draft Report




                                                            Page 30
Inspection of Internal Revenue Service Controls to Achieve
  Its Goal of Reducing Time Charges for Union Activities




            *****Code Number 7*****




                                                       Page 31
Inspection of Internal Revenue Service Controls to Achieve
  Its Goal of Reducing Time Charges for Union Activities




            *****Code Number 7*****




                                                       Page 32
